               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-03178-70




        Healthcare Inspection 

 Alleged Lapses in Communication 

      and Poor Quality of Care 

 Charlie Norwood VA Medical Center 

          Augusta, Georgia 





February 12, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection at the Charlie Norwood VA Medical Center in Augusta, GA. in response to
allegations received through the OIG’s Hotline Division and from Congressman Doug
Collins’ office of poor patient care, lapses in communication between facility staff and
the patient’s family, inadequate physician/nurse staffing, loss of the patient’s personal
property, and failure to provide medical information to another facility.

We substantiated that the patient developed pressure ulcers on his sacrum and coccyx
after admission to the hospital and that documentation of care rendered to prevent
ulcers was inconsistent. Since the facility is in the process of improving the prevention
of pressure ulcer program and progress will be monitored through the Combined
Assessment Program review follow-up, we made no recommendations concerning this
allegation.

We substantiated that facility staff and physicians failed to effectively communicate with
the patient’s family regarding the patient’s condition and treatment needs. We
substantiated that facility staff did not securely safeguard the patient’s personal
belongings during the patient’s hospitalization.

We did not substantiate the allegation that staff members expressed concern regarding
inadequate nurse staffing levels. We found that nurse staffing levels in the intensive
care unit met or exceeded target levels. We addressed the physician staffing levels in
the context of resident physician communications with the family.

We did not substantiate the allegation that the facility did not provide the private
rehabilitation center with current patient health records.

We recommended that the Facility Director (1) ensure that patient information is shared
with patients, families, and significant others in an appropriate manner that protects
patient privacy, and (2) ensure that processes be strengthened for inventory,
documentation, storage, and retrieval of patient belongings, and that compliance is
monitored.

Comments

The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 9–12 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.



                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections


VA Office of Inspector General                                                                  i
        Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA



                                           Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to allegations received by the OIG’s Hotline Division and from
Congressman Doug Collins’ office of poor patient care, lapses in communication
between facility staff and the patient’s family, inadequate physician/nurse staffing, and
loss of the patient’s personal property at the Charlie Norwood VA Medical Center (the
facility) in Augusta, GA. The purpose of this inspection was to determine whether the
allegations had merit.

                                       Background 

The facility is part of a two-division system in Veterans Integrated Service Network
(VISN) 7, and is located in Augusta, GA. The facility has 278 acute inpatient beds, 60
domiciliary beds, and 132 community living center beds. Medicine, surgery, mental
health, rehabilitation, and spinal cord injury services are provided at a downtown
campus, and mental health and long term care are provided at an uptown campus.

Pressure Ulcers

Pressure ulcers, also known as decubiti or bedsores, are localized injuries to the skin
and/or underlying tissue that usually occur over a bony prominence as a result of
pressure, or pressure in combination with shear and/or friction. The most common sites
at which pressure ulcers occur are the sacrum, coccyx, heels, and hips, but other sites
such as the elbows, knees, ankles, or the back of the head also may be affected.
Pressure ulcers most commonly develop in persons who are confined to bed or
wheelchairs. Other factors that can increase the risk of pressure ulcer development
include malnutrition, poor nutritional intake, and skin wetness caused by sweating or
incontinence, and virtually any overall catabolic (body-wasting) state.

Although often prevented and treatable if detected early, pressure ulcers can be difficult
to prevent and even more difficult to treat in critically ill patients. Primary prevention
measures consist of attempting to redistribute pressure by turning the patient regularly.
In addition to turning and re-positioning the patient, having an adequate protein intake
and keeping the skin free from exposure to urine and feces is critical. A clinically
reliable tool for documentation of skin condition is the Braden Scale1 that is widely used
to score and predict an individual’s level of risk for developing pressure ulcers. When
present, pressure ulcers are categorized in stages by degree of severity as follows:

        Stage I: the skin appears reddened and does not blanch (loss of color when
         slight pressure is briefly applied).
        Stage II: the skin breaks open, wears away, or forms an ulcer, which is usually
         tender and painful. The sore extends into deeper layers of the skin.

1
 The Braden Scale assesses a patient's risk of developing a pressure ulcer by examining six criteria.
http://www.nlm.nih.gov/research/umls/sourcereleasedocs/2009AA/LNC_BRADEN/ accessed September 26, 2013.


VA Office of Inspector General                                                                       1
       Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


       Stage III: the sore extends into the tissue beneath the skin, forming a small
        crater; fat may show in the sore, but not muscle, tendon, or bone.
       Stage IV: the pressure sore is very deep, reaching into muscle and bone;
        damage to deeper tissues, tendons, and joints may occur.
       Unstageable: the base of the sore is covered by a thick layer of other tissue and
        pus so that the depth and stage is undeterminable.

Allegations

The OIG’s Hotline Division received the following allegations in May and August 2013:

   	 A patient received poor care during hospitalization and as a result, acquired a
      Stage III pressure ulcer on his sacrum and coccyx.
   	 Nursing staff were rude, and reported inaccurate and inconsistent information to
      the family regarding the patient’s health status.
   	 Physicians did not return phone calls to the family, and did not consistently
      communicate changes in the patient’s condition to the family.
   	 Facility staff members expressed concerns to the patient’s family regarding
      physician staffing levels (coverage) in the context of alleged difficulty in
      communicating with house staff (physicians-in-training).
   	 Facility staff members expressed their concerns to the patient’s family regarding
      inadequate nurse staffing levels.
   	 Facility staff members mishandled and lost the patient’s personal belongings and
      valuables.
   	 The facility did not provide current health records prior to transferring the patient
        to a private rehabilitation center.

                            Scope and Methodology 

We conducted a site visit during the week of August 12, 2013. We interviewed facility
leadership, clinical providers, facility managers, and other employees with direct
knowledge of the patient’s care. We reviewed the patient’s electronic health record
(EHR) documentation, Patient Advocate Tracking System reports, VHA and facility
policies, peer reviews, staff competency and training folders, staffing methodology
statistics, and other documents pertinent to the allegations.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                  2
       Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA



                                        Case Summary 

The patient was a male veteran in his late sixties with multiple medical conditions,
including: chronic heart failure, chronic kidney disease, coronary artery disease,
peripheral vascular disease, diabetes-type II, diabetic neuropathy, and diabetic foot
ulcers. He had had a previous right below-the-knee amputation in December 2009, and
a cerebral vascular accident in 2012.

The patient had long-standing circulation problems in his left leg.               Numerous
interventions from December 2012 to April 2013 were unsuccessful in preserving the
integrity of the patient’s left foot. When the patient returned to the facility for follow-up
assessments of his left leg and foot condition in April 2013, he was diagnosed with a
plantar ulcer2 with necrosis (dead tissue) and suspected sepsis,3 and was admitted to
an inpatient medical unit at the facility. Admission nursing notes documenting a skin
assessment do not include a reference to breakdown in the sacrum or coccyx area and
indicated that the patient was not at high risk for developing pressure ulcers.

On hospital day (HD) 2, the patient had a guillotine amputation4 of the left foot and
ankle, the first of a two-part limb amputation. The patient’s EHR reflected that directly
following this procedure, the patient was transferred back to the medical unit. On HD
10, the patient had a below the knee amputation of the left leg, and was transferred to
the intensive care unit (ICU). He remained in the ICU for 2 days.

On HD 12, the patient was transferred back to the same medical unit in stable condition.
On HD 13, the patient was moved to the ICU because of low urinary output and
recurring episodes of low blood pressure. It was determined that the patient needed
hemodialysis5. On HD 14, the patient was intubated6 and placed on a ventilator due to
acute respiratory distress. Hemodialysis was performed daily for 2 days.

Attempts to wean the patient from the ventilator were successful, and on HD 18, the
patient was removed from the ventilator. On HD 20, the patient was transferred from
the ICU back to the medical unit from which he had been transferred.

On HD 22, while still on the medical unit, the patient’s respiratory condition once again
began to deteriorate. The patient was intubated, transported to the ICU, and placed
back on a ventilator. On HD 24, the patient underwent bilateral thoracenteses (removal
of excess fluid from the chest cavity). On HD 25, a percutaneous endoscopic
gastrostomy7 tube was placed for nutritional support.

2
  A plantar ulcer is a deep ulcer on the sole of the foot often resulting from repeated injury because of lack of 

sensation. 

3
  Sepsis is a potentially life-threatening blood infection.

4
  Guillotine amputation is an emergency removal of a limb, with the surgical site left open. 

5
  Hemodialysis is a process that uses a man-made membrane (dialyzer) to remove wastes from the blood, restore the 

proper balance of electrolytes in the blood, and eliminate extra fluid from the body. 

6
  Intubation is the placement of a flexible plastic tube into the trachea (windpipe) to maintain an open airway.

7
  A percutaneous endoscopic gastrostomy tube is a feeding tube placed into the stomach through the abdominal wall.



VA Office of Inspector General                                                                                  3
       Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


On HD 35, a wound care specialist was consulted. Documentation in the EHR reflected
that the patient had an “unstageable” pressure ulcer on the sacrum/coccyx, and that the
wound was covered with black eschar.8 Specific orders for repositioning the patient,
dressing changes, and wound care were given. On HD 36, a critical care surgeon
documented that the patient’s sacral pressure ulcer might need surgical debridement.
On HD 38, the patient was seen by a plastic surgeon, who felt that the patient was not a
candidate for surgical intervention at that time.

Attempts to wean the patient from the ventilator were unsuccessful and on HD 42, the
patient had a tracheostomy9 tube inserted for long term airway management. By HD
73, the patient was successfully weaned from the ventilator.

On HD 80, the patient was transferred by ambulance to a private rehabilitation center in
Alabama.

                                      Inspection Results 

Issue 1: Poor Patient Care

We substantiated that the patient developed a stage III-IV pressure ulcer, later deemed
unstageable, on his sacrum and coccyx while hospitalized at the facility.

We reviewed EHR documentation of the patient’s skin condition and actions taken to
prevent and/or heal pressure ulcers. We found that a template note was used on the
medical unit, and documentation of the presence and severity of pressure ulcers and
actions taken to prevent and treat the patient’s pressure ulcers was inconsistent,
making it difficult to ascertain when and where the pressure ulcers developed and what
was done for the patient in this regard. The patient’s EHR reflected skin breakdown
only on the patient’s foot upon admission with documentation of an ulcer in the sacrum
and coccyx area later during his hospitalization.

Issue 2: Ineffective Communication

Family Communication. We substantiated that staff and physicians provided neither
accurate nor sufficient information about the patient to the patient’s family.

VHA policy10 states that staff may disclose individually identifiable information including
health information to next-of-kin, family members, and others with a significant
relationship to the individual to whom the information pertains, without authorization,
when in the best interests of the individual. The disclosure must be limited to
information directly relevant to the requestor’s involvement with the individual’s health
care.

8
  Eschar is considered nonviable, dark, crusty, dead tissue.

9
  A tracheostomy is a surgical procedure to create an opening through the neck into the trachea (windpipe). A tube is 

usually placed through this opening to provide an airway and remove secretions from the lungs. 

10
   VHA Handbook1605.1, Privacy and Release of Information, May 17, 2006. 



VA Office of Inspector General                                                                                      4
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


Members of the patient’s family stated that they were given incorrect information about
whether or not the patient had undergone a thoracentesis. We interviewed a staff
member that recalled talking to the patient’s family and inadvertently giving them
erroneous information regarding a thoracentesis procedure the patient had recently
undergone.

The family also stated that they were not notified, as requested, if the patient was
transferred from one hospital location to another or needed new treatments. When the
patient required hemodialysis, the EHR reflected that the attending physician made
multiple unsuccessful attempts to reach the patient’s family to discuss the patient’s
condition and to obtain consent for the hemodialysis. As previous conversations were
understood by the patient’s physician to mean that the family wished for all treatment to
be continued, informed consent was obtained from the patient and hemodialysis was
initiated.

When the patient was transferred from ICU to the medical unit on HD 12, nursing
documentation indicated that the attending physician was made aware of the family’s
standing request to be contacted for any changes in the patient’s condition or when
transferring the patient to another unit. We found no evidence that the family was
contacted prior to moving the patient to the medical unit on HD 12.

We did not substantiate the allegation that facility staff members expressed concerns to
the patient’s family regarding physician staffing levels and physicians not returning their
phone calls.

A staff member recalled asking the weekend on-call resident assigned to the patient to
contact the patient’s family as had been requested, and provided the resident with the
contact information. When the staff member asked the resident later in the day if he
had contacted the family, he said he had not. The staff member did not take further
action, such as contacting the patient’s attending physician. We were told that when
management became aware of the family’s frustration in regard to the frequency and
accuracy of communications by the facility, a nurse practitioner in Surgical Services was
designated as the contact person for the family, and attempted to keep them apprised of
the patient’s condition.

Nursing and physician staff described widely varying approaches used when discussing
a patient’s condition over the phone. Some staff members we interviewed expressed
frustration with the lack of consistency between staff regarding processes for release of
information about inpatients. Facility leadership told us that they did not have a facility-
wide process in place for release of patient information in a secure manner until just
prior to our visit. They presented a policy for secure sharing of patient information to us
while we were on site.

Rude Staff. We did not substantiate the allegation that staff nurses were rude to the
family members during the patient’s hospitalization. Review of patient advocate reports
for the first 3 quarters of FY 2013 did not reveal any complaints of ICU staff rudeness.



VA Office of Inspector General                                                                 5
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


Issue 3: Staffing

We did not substantiate the allegation that facility staff members expressed concern to
the patient’s family regarding inadequate nurse staffing levels.

The staff we interviewed did not recall discussing staffing levels with the patient’s family.
Furthermore, none of the nursing staff felt that staffing was inadequate. We evaluated
staffing levels in the ICU for the 6 months prior to our inspection visit and found that
recommended staffing levels were consistently maintained and the methodology used
was consistent with VHA guidelines. Additionally, a recent evaluation of nurse staffing
on three inpatient units done as a part of the Combined Assessment Program (CAP)
Review of the facility (Combined Assessment Program Review of the Charlie Norwood
VA Medical Center, Augusta, Georgia, Report No. 13-01972-284, August 19, 2013)
showed that staffing levels met or exceeded targets.

Issue 4: Loss of Personal Property

We substantiated that facility staff failed to properly document, track, and protect the
patient’s personal belongings, resulting in loss of some of the patient’s clothing,
personal items, a wallet, and the temporary loss of the patient’s motorized wheelchair.

Local policy requires that Health Administrative Service (HAS) inventory and secure
non-ambulatory patients’ belongings. Belongings are to be listed, labeled, and placed in
an envelope. A receipt is placed on the patient chart, and the patient’s belongings are
stored in a secure area. If HAS staff is not available, nursing staff are to perform these
functions. EHR documentation by nursing staff regarding the patient’s personal
belongings is summarized in Table 1.

               Unit Transferred                  Documentation of the Disposition of the
   HD #
                   From/To                           Patient’s Personal Belongings

Admission     Admitted to medical   1 red motorized wheelchair (placed in cast room), 1 short sleeve
              unit                  green shirt, 1 pair of blue jean shorts, 1 pair black orthopedic shoes,
                                    1 black cell phone, $53.95 cash, and 1 red credit card

    10        Medical unit to       No documentation in the EHR regarding disposition of the patient’s
              surgery to ICU        personal property

    12        ICU to medical unit   EHR documentation in the transfer summary from ICU to the
                                    medical unit indicated “none” for disposition of patient belongings

    13        Medical unit to ICU   EHR documentation stated that “vet received from unit with no
                                    valuables or clothing.” Another note stated “clothing room” for
                                    disposition of patient belongings. A third note stated that “no
                                    personal belongings arrived with pt [patient] from 4A”

    20        ICU to medical unit   No documentation in the EHR regarding disposition of the patient’s
                                    personal belongings




VA Office of Inspector General                                                                           6
       Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


     22        Medical unit to ICU     EHR documentation indicated that there were, “no personal effects
                                       noted” for the patient

     80        Discharged from         EHR documentation included: 1 prosthetic limb with shoe (black), 1
               the ICU to private      aluminum cane (copper brown), 2 cell phones, 1 charge card, 1 pair
               rehabilitation center   black frame glasses, 1 black ortho shoe, 1 beige stump sock, 1 pair
                                       jean shorts, 1 brown belt, 1 green pullover shirt (short sleeve), 1 pair
                                       underwear, 1 Bluetooth, 8 quarters, 2 nickels, 1 dime, and no wallet
                                       among the things brought to the ICU. A nursing discharge summary,
                                       written later the same day, stated that the patient has no specialty
                                       equipment to be returned to him.

Table 1. Documentation of the Disposition of Patient Belongings

The facility was not aware that the patient’s motorized wheelchair had been misplaced
until we brought it to their attention. At the time of our visit, the wheelchair was located
in a storage room on one of the medical units. The facility agreed to have the
wheelchair delivered to an address provided by the patient’s son.

Facility staff gave contradictory information regarding the process for inventory,
tracking, and management of the patient’s personal belongings. Documentation of the
disposition of the patient’s personal belongings in the EHR was inconsistent. Some
staff members used a template note for documentation of disposition of personal
belongings, while others made an entry into nursing transfer notes. A consistent
process to account for clothing items stored in the facility “clothing room” was not in
place. Additionally, we noted that while there was a process for inventorying,
documenting, labeling, and storing personal property, including money, jewelry, and
other valuables, staff was confused as to which staff was responsible for carrying out
the process.

Issue 5: Transfer of Patient Information

We did not substantiate that the facility failed to provide current health records to the
private rehabilitation center where the patient was transferred upon discharge.

Facility staff members involved with the patient’s transfer stated they faxed the last
three days of the patient’s hospitalization records to the center and provided copies to
the patient on the day of transfer. They stated they were in contact by phone with the
rehabilitation center’s transfer coordinator. We made multiple attempts to reach the
rehabilitation center’s admissions coordinator and director, but neither responded to our
requests for information. While we were on site, the facility’s risk manager contacted
the rehabilitation center and requested copies of the health records sent by the facility to
verify what information was provided. The rehabilitation center did not respond to
follow-up phone calls or emails, and did not provide the requested documents.




VA Office of Inspector General                                                                               7
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA



                                     Conclusions 

We substantiated the allegation that the patient developed stage III-IV pressure ulcers
on his sacrum and coccyx during his hospitalization.

Documentation of measures taken to prevent and/or treat pressure ulcers was
inadequate. While we were onsite, the facility provided documentation about recent
actions taken to improve the pressure ulcer prevention and monitoring program. These
actions were in response to findings and recommendations from a recent CAP visit.
Since the facility is in the process of improving this program, and progress will be
monitored through CAP follow-up processes, we made no recommendations in this
area.

We substantiated that facility staff and physicians failed to effectively communicate with
the patient’s family regarding the patient’s condition and treatment needs.

We did not substantiate that staff members were rude or that they expressed concern
regarding inadequate staffing levels. We found that staffing levels in the ICU met or
exceeded target levels.

We substantiated that facility staff did not securely safeguard or retrieve the patient’s
personal belongings during the patient’s hospitalization.

We did not substantiate the allegation that the facility did not provide the private
rehabilitation center with current patient health records. The facility provided the last
three days of hospitalization records to the admissions coordinator at the receiving
facility, and was in contact with the rehabilitation center’s transfer coordinator during the
discharge process.

                                 Recommendations 

1. We recommended that the Facility Director ensure that a process is in place to
assure that patient information is shared with patients, families, and significant others in
an appropriate manner that protects patient privacy.

2. We recommended that the Facility Director ensure that processes be strengthened
for inventory, documentation, storage, and retrieval of patient belongings, and that
compliance is monitored.




VA Office of Inspector General                                                                 8
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA
                                                                                     Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


      Date: January 22, 2014

    From: Director, Veterans Integrated Service Network (10N7)

 Subject: Draft Report - Healthcare Inspection - Alleged Lapses in
          Communication and Poor Quality of Care, Charlie Norwood VA
          Medical Center, Augusta, GA

        To: Director, Regional Office of Healthcare Inspections (54SP)
             Director, Management Review Service (VHA 10AR MRS OIG Hotline)


         1. I have reviewed the draft report and concur with Augusta’s actions for
            improvement. The VISN will monitor and ensure improvements are
            implemented and sustained.

         2. If you have any questions please contact Robin Hindsman, VISN 7
            QMO at 678-924-5723.




             (original signed by:)

            Charles E. Sepich, FACHE




VA Office of Inspector General                                                                 9
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA
                                                                                              Appendix B
                         Facility Director Comments



                Department of
                Veterans Affairs                                         Memorandum


      Date: January 10, 2014

      From: Facility Director, Charlie Norwood VAMC (509/00)

   Subject: Draft Report— Healthcare Inspection - Alleged Lapses in
               Communication and Poor Quality of Care Concerns, Charlie
               Norwood VA Medical Center, Augusta, GA

         To: Director, VA Southeast Network (10N7)


         1 . I h a v e r e v i e w e d t h e d r a f t 	r e p o r t a n d c o n c u r w i t h t h e
             r e p o r t ' s recommendations.

         2 .	 Thank you for the opportunity to review the draft report. Attached
              is the complete corrective action plan for the report's
              recommendations. If you have any questions, please contact
              Kimberlie Denmark, RN, Chief, Quality Management Service, at
              706-733-0188, extension 2447.




           Robert. U. Hamilton, MHA, FACHE




VA Office of Inspector General                                                                        10
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report.

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that a process
is in place to assure that patient information is shared with patients, families, and
significant others in an appropriate manner that protects patient privacy.

Concur

Target date for completion: March 31, 2014

Facility response:

   	 The facility developed a policy entitled “Pass Code for Sharing of Patient
      Information” (Medical Center Policy Memorandum No. 116-13-07, dated 8/6/13)
      which provides the staff with a process for sharing patient information with
      patients, families and significant others without violating the patient’s privacy
      rights.

   	 The policy was approved through facility committees and forwarded to service
      chiefs for staff education.

   	 The facility is rolling out a new patient centered care initiative in February 2014.
      The emphasis of this initiative will be communication between caregivers and
      patients/families. Facility leadership will focus on the engagement of staff with
      patients and families throughout the facility.

Recommendation 2. We recommended that the Facility Director ensure that
processes be strengthened for inventory, documentation, storage, and retrieval of
patient belongings, and that compliance is monitored.

Concur

Target date for completion: February 28, 2014

Facility response:

   	 Health Administration Services (HAS) has reviewed and revised the standard
       operating procedure, Ward Administration/Admissions/SCIU Receipt and
       Disposition of Patient Effects and Valuables, to ensure patient’s effects and
       valuables are secured and returned to the patient.




VA Office of Inspector General                                                                11
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA


   	 Medical Center Policy Memorandum No. 116-12, Patient Clothing, Effects and
       Valuables, was reviewed to reflect consistency with the revised standard
       operating procedure and revisions to be approved through facility committee.

   	 Staff will be re-educated on the standard operating procedure and medical
      center policy memorandum.

   	 Reviews of admissions/discharges will be conducted to monitor
      compliance with the established policy and procedure for the receipt and
      disposition of patient effects and valuables.




VA Office of Inspector General                                                                12
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Darlene Conde-Nadeau, MSN, ARNP, Team Leader
                         Carol Torczon, MSN, ACNP
                         Dr. George Wesley, M.D. 

                         Jackelinne Melendez, Program Support Assistant 





VA Office of Inspector General                                                                13
      Alleged Lapses in Communication and Poor Quality of Care, Charlie Norwood VAMC, Augusta, GA
                                                                                     Appendix D



                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Charlie Norwood VA Medical Center (509/00)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: John Barrow, Paul C. Broun, Doug Collins,
  Jeff Duncan, Joe Wilson

This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                14
